<html>
<title> - NOMINATION OF ROBERT D. OKUN</title>
<body><pre>[Senate Hearing 112-648]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-648

 
                      NOMINATION OF ROBERT D. OKUN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE



                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

 NOMINATION OF ROBERT D. OKUN TO BE AN ASSOCIATE JUDGE, SUPERIOR COURT 
                      OF THE DISTRICT OF COLUMBIA

                               __________

                           NOVEMBER 20, 2012


        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
77-159                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7d0c7d8f7d4c2c4c3dfd2dbc799d4d8da99">[email&#160;protected]</a>  

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  JERRY MORAN, Kansas

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
    Christine K. West, Staff Director, Subcommittee on Oversight of 
                         Government Management,
          the Federal Workforce, and the District of Columbia
               Nicholas A. Rossi, Minority Staff Director
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                 Patricia R. Hogan, Publications Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
Prepared statements:
    Senator Akaka................................................     9

                               WITNESSES
                       Tuesday, November 20, 2012

Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia:
    Testimony....................................................     1
Robert D. Okun to be an Associate Judge, Superior Court of the 
  District of Columbia:
    Testimony....................................................     3
    Prepared statement...........................................    10
    Biographical and financial information.......................    11


                      NOMINATION OF ROBERT D. OKUN

                              ----------                              


                       TUESDAY, NOVEMBER 20, 2012

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will now come to order.
    Aloha and welcome to everyone here today. The Committee on 
Homeland Security and Governmental Affairs meets to consider 
the nomination of Robert Okun to be an Associate Judge of the 
District of Columbia Superior Court.
    I am always happy to see my good friend from the District 
of Columbia who is here to introduce our nominee. I would like 
to welcome her with much aloha to this Committee. I tell you, 
Congresswoman Norton, it has really been a great pleasure to 
work with you. You have helped D.C. so much over the years. It 
is not a bad word, but she is a legend in D.C.
    So, Congresswoman Norton, will you please proceed with your 
introduction.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Well, I thank you, Senator Akaka. It is you who 
have done so much for the District of Columbia and for our 
country over the years, and I cannot thank you enough for that, 
as I do every time when I come, but especially this year.
    Senator Akaka. Thank you.
    Ms. Norton. Today, I am here to introduce Robert Okun for a 
seat on the Superior Court of the District of Columbia.
    Now, Mr. Okun is particularly well qualified for that seat, 
in my judgment. He has a very well-rounded legal career, much 
of it spent in the U.S. Attorney's Office here in the District 
of Columbia. He currently is the Chief of the Special 
Proceedings Division of that office, where he oversees all 
post-conviction motions. That is like the motion to vacate 
sentences, for example, and many other similar motions. He has 
been Executive Assistant U.S. Attorney for Operations, and that 
post gave him oversight over all the litigating divisions of 
the U.S. Attorney's Office.
    Mr. Okun has spent 21 years in criminal litigation, 
including 14 years as a supervisor for other attorneys in 
criminal litigation. He has many years in civil litigation. He 
was a trial attorney in the Fraud Section of the Civil Division 
of the Department of Justice.
    He has served for 6 years, in addition, as a hearing 
officer for our own District of Columbia Board of Professional 
Responsibilities, which hears allegations against members of 
the District of Columbia Bar.
    Now, Mr. Okun should know the Superior Court well, for he 
clerked on that court for Associate Judge Frank Schwelb.
    Mr. Okun is a graduate of Harvard Law School, Cum Laude, 
and the University of Pennsylvania, Magna Cum Laude.
    I am very pleased to recommend him highly to you, Mr. 
Chairman, and appreciate your hearing him today.
    Senator Akaka. Well, thank you very much, Congresswoman 
Norton. As I said, I have thought of you as the one who has 
done so much for the District of Columbia. You know that I am 
retiring in a few weeks, so this will be our last nomination 
hearing together. You have been a great partner in our work to 
improve the District and have been, what else can I say, a 
zealous advocate for its residents for 22 years, and I am still 
counting. I want to thank you for all you have done and wish 
you well in the work that is ahead of you.
    We understand that you have a busy schedule, and I 
appreciate your being here today. But I want to reach out and 
say, God bless you and your family and wish you well in all you 
do.
    Ms. Norton. Well, I thank you, Mr. Akaka, and your decision 
to leave your service here in the Senate leaves for the 
District of Columbia a hole in our heart and a big hole in the 
chair where you sit. Thank you very much.
    Senator Akaka. Thank you very much. I wish you well.
    After hearing Congresswoman Norton and reading about him, I 
believe that our nominee is well-qualified and will join the 
others who have appeared before us in making valuable 
contributions to the D.C. bench. I recognize some of you here 
today.
    Mr. Okun is Chief of the Special Proceedings Division of 
the U.S. Attorney's Office for the District of Columbia, and he 
is a dedicated public servant with years of criminal and civil 
law experience.
    Mr. Okun, I understand that, and looking at the number of 
people here, your family and friends are here. I would like to 
give you an opportunity to introduce them at this time to the 
Committee.
    Mr. Okun. Thank you, Mr. Chairman.
    I would like to introduce the members of my family who are 
here today: My father-in-law, Irving Korostoff; my mother-in-
law, Ethel Korostoff; my cousin, David Okun, and his wife, 
Sheila Reiser Okun, and their son, Justin Okun; my sister, 
Ellen Okun, and my brother-in-law, Donald Zack; my niece, 
Elizabeth Zack, and my nephew, Andrew Zack; my son, Eli, and my 
daughter, Julia; and last but not least, my wife, Sue, who has 
been my biggest source of support and guidance during the 
entire judicial nomination process.
    Senator Akaka. Well, thank you very much. I know we have 
other judges here, and I look upon them as supporters of your 
nomination.
    Without question, I know that your loved ones are very 
proud of your accomplishments and your nomination to the D.C. 
Superior Court. I am sure that they will continue to be a 
source of support as you embark on this new chapter of your 
career.
    Our nominee has filed responses to a biographical and 
financial questionnaire submitted to him by the Committee. 
Without objection, this information will be made part of the 
hearing record, with the exception of the financial data, which 
will be kept on file and made available for public inspection 
in the Committee office.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
at this time, I ask you to please stand and raise your right 
hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Okun. I do, Mr. Chairman.
    Senator Akaka. Thank you. Please note for the record that 
the witness answered in the affirmative.
    Mr. Okun, it is great to have you here. We would like to 
hear from you, so please proceed with your statement.

   TESTIMONY OF ROBERT D. OKUN \1\ TO BE AN ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Okun. Thank you, Mr. Chairman. Mr. Chairman and Members 
of the Committee, thank you for giving me the opportunity to 
appear before you today as you consider my nomination to be an 
Associate Judge of the Superior Court of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Okun appears in the Appendix on 
page 10.
---------------------------------------------------------------------------
    I would like to thank the Judicial Nomination Commission 
and its Chair, Judge Emmet Sullivan, for recommending me to the 
White House, and I would like to thank President Obama for 
nominating me. I also would like to thank Congresswoman Norton 
for taking the time out of her busy schedule to introduce me at 
the hearing today. In addition, I would like to express my 
appreciation to the Committee Members and to the Committee 
staff for their hard work and for considering my nomination so 
expeditiously.
    I have already introduced the members of my family who are 
here today, and I am grateful that they could be here with me 
on this occasion. But I also would like to recognize two people 
who are not here with me today, and that is my late parents, 
Bill and Judy Okun, who would be very pleased to see me sitting 
here today and without whom I would not be sitting here.
    Finally, I would like to acknowledge Chief Judge Lee 
Satterfield of the Superior Court, Chief Judge Royce Lamberth 
of the U.S. District Court, and my many friends and colleagues, 
some of whom are here today, and to thank them for all their 
support and kindness over the years.
    My entire career has been devoted to public service, and 
the majority of my career has been specifically dedicated to 
serving the people of the District of Columbia. In fact, I 
started my legal career as a judicial law clerk in the Superior 
Court of the District of Columbia, serving as a law clerk for 
the Hon. Frank E. Schwelb, who, I am happy to say, is in 
attendance at today's hearing.
    I also spent a significant portion of my career as a 
consumer protection attorney, first at the Federal Trade 
Commission, and then at the U.S. Department of Justice.
    Last but not least, I have served as a prosecutor for 
almost 19 years in the U.S. Attorney's Office for the District 
of Columbia, litigating a wide variety of cases in both 
Superior Court and the U.S. District Court.
    It would be a privilege and an honor for me to continue my 
public service and my commitment to the citizens of the 
District of Columbia as an Associate Judge of the Superior 
Court.
    Thank you again for considering my nomination, and I look 
forward to answering any questions you may have.
    Senator Akaka. Thank you very much, Mr. Okun.
    I will begin with the standard questions this Committee 
asks of all nominees, and I would like you to answer each 
question.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Okun. No, Mr. Chairman.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would prevent you from fully and honorably 
discharging the responsibilities of the office to which you 
have been nominated?
    Mr. Okun. No, Mr. Chairman.
    Senator Akaka. Do you agree, without reservation, to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Okun. Yes, Mr. Chairman.
    Senator Akaka. Thank you very much for those answers.
    I have a few questions. First, I want to commend you for 
seeking this nomination to continue a life of public service, 
which you said you are committed to. Why would you like to 
become an Associate Judge at this point in your career, and 
what contributions do you hope to make if you are confirmed?
    Mr. Okun. Well, Mr. Chairman, there are many reasons I 
would like to become an Associate Judge at this point in my 
career, but the main one is that it would give me the 
opportunity to make a difference in people's lives on a daily 
basis. And there are many careers that give you that sort of 
opportunity, including my current career as a prosecutor. But I 
think the opportunities I would have as a judge are so much 
broader and so much more extensive because a judge makes so 
many decisions each and every day that affect people's lives, 
and not just in the criminal law context, but in the civil 
context and in probate and tax cases and in the Family Court, 
where a judge is often called upon to decide what is in the 
best interest of a child.
    So I think the main reason that I would like to become an 
Associate Judge of the Superior Court at this stage in my 
career is that it would give me a broader range of 
opportunities to make a difference in people's lives on a daily 
basis, and that is a challenge I am very much looking forward 
to.
    Senator Akaka. Thank you. I think that is a great 
challenge.
    Mr. Okun, as an Associate Judge, you would be challenged to 
rule on complex issues, both quickly and correctly. Please 
describe how your experience qualifies you to confront this 
challenge.
    Mr. Okun. Well, Mr. Chairman, I think it would be a 
challenge to rule on issues quickly and correctly, given the 
volume of the caseload in the Superior Court. But I think there 
are a number of things in my background that would help me meet 
that challenge.
    First, as an Assistant U.S. Attorney in the U.S. Attorney's 
Office, I have spent a lot of time in the courtroom, and I am 
used to making decisions quickly and thinking on my feet, and I 
think that those traits would help me if I were a trial judge 
in the Superior Court.
    Second, as the Chief of the Special Proceedings Division, I 
supervise a division that receives over 1,000 motions every 
year, so I am very used to the high-volume practice that many 
Superior Court judges have to handle, as well.
    And third, I have had experience as an impartial decision 
maker based on my tenure as a member of a hearing committee for 
the Board on Professional Responsibility, where I presided over 
hearings involving alleged attorney misconduct, ruled on 
motions, ruled on evidentiary objections, and ultimately wrote 
reports and recommendations concerning the attorneys' liability 
and recommended sanctions. And I think that that experience 
would translate very well into some of the tasks that I would 
have to deal with if I were appointed and confirmed as a 
Superior Court Judge.
    So I think even though it would be a challenge to rule on 
issues both quickly and correctly, given the volume of cases I 
might see, that my experience would help me meet that 
challenge.
    Senator Akaka. Mr. Okun, as you mentioned, judges must 
often handle heavy caseloads. Please describe how you would 
balance the need to move efficiently through cases while 
ensuring that all cases receive thoughtful consideration.
    Mr. Okun. Well, Mr. Chairman, I agree that it is a 
challenge to balance the interest in moving your caseload 
efficiently with the interest in making sure that you are 
resolving cases carefully and thoroughly. And I think that 
there are a number of things that a judge should do to balance 
those competing interests.
    Ultimately, a judge's job is to get it right, no matter how 
long it takes. But at the same time, there are a number of 
things a judge can do in making decisions that can increase the 
efficiency of the decision without adversely affecting the 
accuracy of the decision, and I think the primary thing that a 
judge can do to balance those competing interests is to be 
prepared--to be prepared before you go to court, to know the 
case before you go to court--because if the judge is prepared 
and the parties are prepared, I think it is much more likely 
that you will be able to manage your caseload efficiently and 
reach the right result.
    Senator Akaka. Mr. Okun, as a judge, people who do not 
fully understand the law or procedure may appear before you. 
How has your experience prepared you to deal with these types 
of litigants?
    Mr. Okun. Well, Mr. Chairman, I think that the challenge of 
dealing with pro se litigants is one of the biggest challenges 
that the Superior Court faces because there are many pro se 
litigants in Superior Court. Fortunately, I do have a good deal 
of experience in dealing with pro se litigants because in the 
division that I supervise, the majority of motions that we 
receive are filed by pro se litigants. So I am very familiar 
with both the claims and the concerns that are often raised by 
pro se litigants.
    At the same time, I recognize that there is a big 
difference between the challenge that I currently face as an 
attorney and the challenge that I would face if I were a 
Superior Court judge, and again, the challenge is balancing 
competing interests. It is balancing the interest in making 
sure that a pro se litigant is not unfairly taken advantage of 
by an opposing party who has a lawyer and at the same time 
making sure that you are not giving an unfair advantage to a 
pro se litigant. And that is a difficult balancing act.
    And I think that the way a judge can try to address those 
competing interests is by, first, patiently and carefully 
explaining both the rules and the procedures that a pro se 
litigant has to follow before any proceeding, by explaining any 
rulings that I would make in terms that a pro se litigant could 
understand, and ultimately by presiding over the trial or the 
hearing in a fair and impartial manner.
    Now, I know that is easier said than done, but I think my 
experience in dealing with pro se litigants would give me 
something of a head start in meeting that challenge.
    And finally, I do want to point out that the Superior Court 
has many resource centers that are designed to provide help to 
pro se litigants who bring cases to court, and I would 
certainly encourage pro se litigants to utilize those resource 
centers, as well.
    Senator Akaka. Thank you.
    Mr. Okun, I want to thank you so much for your responses. 
This will be my final question. You have appeared before a 
number of judges and have no doubt learned a great deal by 
observing different styles and temperaments. Please describe 
how you would manage a courtroom, including things you want to 
emulate and avoid.
    Mr. Okun. Well, Mr. Chairman, I served as the Chair of the 
Judicial Evaluation Committee for the D.C. Bar, which is a 
committee that solicits input from attorneys and solicits their 
input on various judges in both Superior Court and the D.C. 
Court of Appeals and asks them their opinions about the judges 
on various traits and qualities. And the quality that I think 
stands out more than any other and that attorneys seem to care 
about more than any other is a judge's temperament, is whether 
the judge treats people fairly and with dignity and respect. 
And I agree that one of the most important things that a good 
judge can do is to be fair, even-handed, and to treat parties 
with dignity and respect.
    The other thing that I think is very important for any 
judge who wants to have a successful career is to be prepared 
and to be prepared not only in the courtroom, but before you 
get to the courtroom, so that the parties and the witnesses are 
not wasting time while you try to get up to speed in the 
courtroom.
    So I think both a judge's temperament and a judge's hard 
work and preparation are the two most important characteristics 
of a good judge and are qualities that I would try to emulate 
if I were to be appointed as a Superior Court judge.
    Senator Akaka. Thank you very much for your testimony.
    There are no further questions at this time. There may be, 
however, additional questions for the record, which will be 
submitted to you in writing. The hearing record will remain 
open until the close of business tomorrow for members of this 
Committee to submit additional statements or questions.
    I want to say a special thank you or mahalo to your family 
and friends who are with us today. As you know, the love and 
support of those around us enables us to accomplish great 
things, so we should be thankful for all that they do for us 
and with us.
    I want you to know that I hope this Committee and the 
Senate will be able to act quickly on your nomination.
    I want to wish all of you well, and because this is a 
special time of the year, I want to say happy Thanksgiving to 
you, your family, and your friends. Ours is a great country, 
and for us to take time off to give thanks is important to our 
spirit, so I am glad we take the time to do so.
    Again, our families are important. After the hearing, I 
want to come and say hello to you directly.
    Mr. Okun. Thank you, Mr. Chairman.
    Senator Akaka. So thank you. I believe you will do the best 
you can, once confirmed. I have, of course, had some 
discussions about you, including with the White House, so we 
want to move you along as quickly as possible so you can get to 
work.
    Mr. Okun. Thank you.
    Senator Akaka. Happy Thanksgiving to all of you and happy 
holidays. This is a great time of the year.
    We look forward to continuing to help in our own ways to 
keep our country great and our people just. This can be done 
better in partnership and in working together. We need 
individuals who, like you, can work hard to address specific 
challenges.
    So, again, thank you very much. This hearing is adjourned.
    [Whereupon, at 3:03 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T7159.001

[GRAPHIC] [TIFF OMITTED] T7159.002

[GRAPHIC] [TIFF OMITTED] T7159.003

[GRAPHIC] [TIFF OMITTED] T7159.004

[GRAPHIC] [TIFF OMITTED] T7159.005

[GRAPHIC] [TIFF OMITTED] T7159.006

[GRAPHIC] [TIFF OMITTED] T7159.007

[GRAPHIC] [TIFF OMITTED] T7159.008

[GRAPHIC] [TIFF OMITTED] T7159.009

[GRAPHIC] [TIFF OMITTED] T7159.010

[GRAPHIC] [TIFF OMITTED] T7159.011

[GRAPHIC] [TIFF OMITTED] T7159.012

[GRAPHIC] [TIFF OMITTED] T7159.013

[GRAPHIC] [TIFF OMITTED] T7159.014

[GRAPHIC] [TIFF OMITTED] T7159.015

[GRAPHIC] [TIFF OMITTED] T7159.016

[GRAPHIC] [TIFF OMITTED] T7159.017

[GRAPHIC] [TIFF OMITTED] T7159.018

[GRAPHIC] [TIFF OMITTED] T7159.019

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
